<html>
<title> - THE MIDWEST FLOODS: WHAT HAPPENED AND WHAT MIGHT BE IMPROVED FOR MANAGING RISK AND RESPONSES IN THE FUTURE</title>
<body><pre>[Senate Hearing 110-1258]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1258
 
                 THE MIDWEST FLOODS: WHAT HAPPENED AND
                  WHAT MIGHT BE IMPROVED FOR MANAGING
                    RISK AND RESPONSES IN THE FUTURE

=======================================================================

                                HEARING

                               BEFORE THE
                               
                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 23, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________
                               
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
88-903                         WASHINGTON : 2015                          
      
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f394839cb3908680879b969f83dd909c9edd">[email&#160;protected]</a> 


           
              COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 17, 2008
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     2
Grassley, Hon. Charles, U.S. Senator from the State of Iowa......     4
Mccaskill, Hon. Claire, U.S. Senator from the State of Missouri..     8
Durbin, Hon. Richard J., U.S. Senator from the State of Illinois.    10
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    14
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    57

                               WITNESSES

Woodley, Hon. John Paul, Assistant Secretary of the Army, Civil 
  Works Accompanied by: Major General Don T. Riley, Deputy 
  Commanding General, Civil and Emergency Operations.............    16
    Prepared statement...........................................    18
    Responses to additional questions from:
        Senator Inhofe...........................................    30
        Senator Barrasso.........................................    32
Walsh, Brigadier General Michael J., Commanding General, U.S. 
  Army Engineer Division, Mississippi Valley.....................    34
    Prepared statement...........................................    37
    Response to an additional question from Senator Inhofe.......    43
    Responses to additional questions from Senator Barrosso......    43


   THE MIDWEST FLOODS: WHAT HAPPENED AND WHAT MIGHT BE IMPROVED FOR 
               MANAGING RISK AND RESPONSES IN THE FUTURE

                              ----------                              


                        WEDNESDAY JULY 23, 2008

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 9:30 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Bond, Carper, Klobuchar.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning. I was sorry to hear that 
Senator Harkin is ill this morning. We are very happy to see 
Senator Grassley here, and I understand Senator McCaskill is 
trying to change her schedule and join us.
    Today the Committee meets to examine the Midwest floods of 
2008 and consider ways of improving flood protection and flood 
response. I think all of America was shocked to see what 
happened, Senator Grassley. We want to help, this Committee 
wants to help.
    We are joined today not only by right now, Senator 
Grassley, and we hope other Senators, but by the Assistant 
Secretary of the Army for Civil Works, John Paul Woodley, and 
Brigadier General Michael J. Walsh, Commanding General U.S. 
Army Engineer Division Mississippi Valley. But before we hear 
from the Corps, we are so happy to have before us Senator 
Grassley. I want to welcome you.
    Your constituents have suffered through a terrible season 
of devastating flooding and the Committee looks forward to 
hearing your testimony. This summer's flooding in Illinois, 
Indiana, Iowa, Wisconsin, Minnesota and Missouri, those floods 
resulted in unusual heavy precipitation which inundated the 
Midwestern region of the U.S. throughout the early part of 
2008. It appears to be continuing into the summer.
    According to data from the Department of Commerce, over 
1,100 daily precipitation records were broken across the 
Midwest, mostly in Iowa, Illinois, Wisconsin and Missouri. 
Further complicating matters is that prior to June's extreme 
rains, much of the upper Mississippi Basin had already 
experienced very wet conditions from the spring and the winter. 
Indeed, precipitation across the upper Mississippi from 
December 2007 through December 2008 was the second wettest 
since 1895. Naturally, this already over-saturated region could 
not stand much more, and the impacts were devastating.
    I would like to take a few moments to share a few images of 
this catastrophic event. Here is a levee breaching in Missouri. 
Then a levee breaching, damaging homes. This is an aerial view 
of what happens when a levee breaches. And then, homes 
destroyed. This chart dramatically shows just how terrible 
flooding can be with homes and other structures uprooted and 
slammed into a bridge.
    But there can be some statistics that are just as dramatic 
as pictures. At least two dozen people died, and 148 people 
sustained injuries due to the floods. Forty-one levees 
overtopped in Iowa, Indiana, Illinois and Missouri. Tens of 
thousands of people had to leave their homes to escape the 
flooding. Many economists predict that the floods are to blame 
for at least $8 billion in losses to crop production.
    Economic damages will likely be higher after losses to 
livestock, farm machinery, buildings and infrastructure are 
accounted for. This last point is something all Americans will 
feel. I will let Senator Grassley tell the rest of the story.
    But I believe these tragic floods have served as a wake-up 
call. Our Nation's water infrastructure needs to be carefully 
reviewed and carefully shored up. Having led a congressional 
delegation to New Orleans last year, I saw for myself what 
happens when we neglect our Nation's flood control 
infrastructure. Like Hurricane Katrina, there is a lesson to be 
learned from the Midwest floods, that we must shore up our 
Nation's water and flood control infrastructure before 
catastrophe strikes, not after.
    And even though most of the levees that failed in this 
year's flooding were non-Federal, we can do so much more to 
help communities protect themselves. Indeed, in the 2007 WRDA, 
we enacted a significant program to inventory and assess many 
of our Nation's levees. However, that was only the first step. 
I look forward to working with colleagues on both sides of the 
aisle to improve and expand that program to inventory and 
assess every levee in this Country as the Senate-passed WRDA 
bill included. I will be asking the Corps about that project.
    I am confident that this tragedy will help recommit our 
Country and this Congress to shoring up our Nation's water 
infrastructure. Last year, I was proud to join with Senator 
Inhofe and all members of this Committee to lead the floor 
fight to overturn the President's veto of WRDA 2007, and we did 
it, by a vote of 79 to 14. I am very grateful for that. But 
like that vote, I want us to come together again. We have to 
tackle this problem, and it shouldn't have anything to do with 
party affiliation.
    So I look forward to hearing from Senator Grassley and any 
other Senator who manages to get here this morning. And of 
course, I look forward to hearing from Secretary Woodley and 
Brigadier General Walsh. With that, I will call on Senator 
Bond.

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Madam Chair, I thank you very much for 
holding the hearing. My home State of Missouri, along with 
Senator Grassley's State of Iowa, has endured flooding on the 
Mississippi River, we also on the Missouri River and the 
tributaries, as well as suffering from tornadoes this spring.
    I very much appreciate your leadership in helping us get 
WRDA passed. I was proud to be able to join you in the veto 
override, because assuring appropriate water infrastructure is 
a vitally important responsibility that we have in Washington 
and this Congress bears through our Committee, environment and 
public works. After the 1993 floods, the first of three 500-
year floods we have experienced in 15 years, I fought hard 
against the OMB and the Administration then, which did not want 
to rebuild the levees. With the help of my colleagues on both 
sides of the aisle, we were able to begin to restore the levees 
that had been destroyed in Missouri in that catastrophic flood.
    I went to the White House and the President's assistant, my 
good friend Leon Paneta, welcomed me by calling me Mr. Levee. I 
said, now, Leon, that may be an insult to you, but I wear that 
as a badge of pride back in the heartland.
    It has been a very trying year for all of us in the flood 
area. But one thing has rung clear: the mitigation of these 
disasters has been a coordinated effort among the Federal, 
State and local governments and volunteers. I am very proud of 
the work that Midwesterners did. I saw the work, particularly 
in Missouri, where I have made visits, as a testament to 
showing how bad disasters can be prevented from becoming worse 
disasters, when competent State and local leaders take 
proactive steps to mitigate circumstances on the ground.
    During Missouri's recent floods, I met with volunteers from 
the Salvation Army, the Red Cross, Missouri's Civil Air Patrol, 
local law enforcement, the National Guard, local surrounding 
communities, and of course, representatives from the Corps of 
Engineers. It was really inspiring to see these people come 
together to protect lives and livelihoods.
    Now, our National Guard acted valiantly. Their work gave 
businesses and families the critical time needed to move 
important assets out of harm's way where levees were in danger 
of failing. People from all walks of life and from across 
Missouri and the heartland have pitched in. It is truly an all 
hands on deck effort, and I am tremendously proud.
    Madam Chair, you might be interested to know that they had 
so many volunteers coming in, they moved out 330,000 sand bags 
and they had more volunteers coming. They used all the sand 
bags that were available. We had thousands of volunteers ready 
to come in. It turned out that the levees had been weakened and 
the levees gave way, not because in most instances, not because 
of lack of sand bags, but because of animals drilling holes in 
the levee, and the fact that it stayed up so long. But Missouri 
and the Midwestern States have pulled together, done an 
outstanding job of preventing damage. And I was pleased to work 
with Senator Grassley and other Senators from the Midwest, 
Senator Harkin, Senator McCaskill, to fund vital programs to 
get our communities up and running again. We included more than 
$600 million to appropriate it to the Corps of Engineers for 
repair of navigation and flood control structures damaged in 
the flood event.
    What is important to focus on now is the speedy repair of 
damaged structures. It is my hope that the money in the 
supplemental appropriations will enable the Corps to expedite 
repair to levees, so when the next storm comes, our farms and 
communities will be protected. We are not holding our breath 
and counting on waiting another 499 years for the next 500-year 
flood. Five hundred year floods tend to come a little more 
frequently than that.
    I thank you very much for holding this hearing and I look 
forward to working with you on this.
    Senator Boxer. Yes, we will.
    Senator Grassley.

          OPENING STATEMENT OF HON. CHARLES GRASSLEY, 
              U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. Thank you, Madam Chairman.
    What you laid out about the situation takes a lot of my 
statement. I want to thank you very much for highlighting. . .
    [remarks off microphone].
    As Senator Harkin, if he were here, and because he is ill, 
he can't be here, demonstrates the bipartisanship we have 
approached this, I like to say that in regard to this flooding, 
to paraphrase Senator Vandenberg in the 1940's and 1950's, he 
said, when it comes to foreign policy, partisanship ends at the 
shoreline. When it comes to flooding, partisanship in Iowa ends 
at the water's edge.
    I thank the Committee for holding the hearing and allowing 
me to share with you this morning. As you know, the Midwest and 
especially Iowa was hit extremely hard by tornadoes, storms and 
flooding this spring. In Iowa, it started out by a deadly 
tornado ripping through my home town and the surrounding areas, 
causing significant damage and death.
    A little more than a week later, record floods brought 
havoc in central and eastern parts of our State, as it has in 
about six or seven other States of the Midwest, maybe to a 
lesser extent, but still damage.
    We also had another tornado sweep through the western part 
of our State that killed four Boy Scouts in early June. Many 
people saw pictures on television or in their newspapers of the 
damage throughout the Midwest and our State. However, those 
pictures hardly do justice to the historic devastation. This 
severe weather system caused a 500-year flood event and the 
rivers overtook communities.
    As Senator Harkin and I toured Iowa, this became very 
apparent, especially when we flew over the affected areas. You 
could hardly see a dry piece of land between any of the cities. 
Our rich Iowa crop land looked like lakes; homes, public 
buildings and businesses being inundated wither water. You 
could only see the tops of many buildings. It was devastating 
and there is hurt everywhere.
    As the water recedes, people are attempting to start 
rebuilding their lives. However, this is frustrating and a 
discouraging process. Not only have folks lost their 
belongings, family photos, heirlooms, they are faced with many 
tough decisions about where they should live and how to protect 
themselves from having to go through this experience again.
    A key component, then, in decisions for individuals and 
communities on how to rebuild is what type and level of flood 
protection that will be in place. The Army Corps of Engineers 
has been partnering with the State of Iowa in emergency and 
recovery efforts. I appreciate the assistance that they have 
provided to Iowans. They have been assessing the damage and the 
need for Federal levees affected by this disaster, and are 
scheduling their emergency repairs. It is my hope that my 
colleagues in Congress will help to provide the moneys needed 
for the Corps to carry out their emergency repair and to do it 
immediately.
    Brigadier General Walsh is here. I would like to share a 
story which emphasizes the need for this emergency assistance. 
Senator Harkin and I were viewing the damage in Louisa County, 
and particularly the city of Oakville that was inundated. This 
area experienced having approximately 4,000 feet of their levee 
washed away. Another opening had to be cut downstream to give 
the water somewhere to go.
    So as you can imagine, the whole town had to be evacuated. 
It was completely underwater, people in distress. Senator 
Harkin and I called General Walsh and personally asked that the 
Corps immediately begin assessing and putting into motion the 
emergency repair of the levee, and they acted accordingly, and 
we thank them very much for that. So we will continue to work 
with the Rock Island District of the Corps in these efforts.
    Furthermore, after the great flood of 1993, which now may 
be a lesser great flood of 1993 than what we had in 2008, it 
was decided in 1993 that a comprehensive plan to integrate 
existing and needed projects into a coordinated system for 
flood damage reduction and flood plain management on the upper 
Mississippi and Illinois Rivers was warranted. Congress 
authorized this plan in Section 459 of the Water Resources 
Development Act of 1999. Earlier this year, the Army Corps 
completed the study. It shows that systemic flood protection is 
achievable. It now awaits congressional approval.
    I look forward to working with this Committee in the near 
future in evaluating and implementing such a plan. Adequate 
appropriations for this effort will also be needed so work can 
begin to reduce the risk of a repeat flood like this year.
    Thank you for letting me testify today about Iowa's floods. 
I would like to reiterate the need for additional Federal 
assistance to help the Midwest in recovery efforts. As we 
toured Iowa communities during the last month, and I did it as 
recently as Monday, once again our constituents often ask us 
``not to forget'' about them.
    So I bring that message to my colleagues. Iowans have great 
pride, great resilience. They aren't complainers, but they are 
hurt. I see I in their eyes every day as they sort through the 
rubble. We only ask that Congress give Iowans and those in the 
Midwest the same consideration that they gave victims of other 
major disasters.
    I hope we acted, when I was chairman of a committee, 
responsibly after the New York disaster, after the Katrina 
disaster, and I would like to have the same response from 
Congress with this disaster, because I think it is just as bad, 
and encourage you to work quickly to get that help.
    [The prepared statement of Senator Grassley follows:]

           Statement of Hon. Charles Grassley, U.S. Senator 
                         from the State of Iowa

    I thank the Committee for holding this hearing and for 
allowing me to share with you this morning. As you know, the 
Midwest and especially Iowa was hit extremely hard by 
tornadoes, storms, and flooding this spring. In Iowa it started 
by a deadly tornado ripping through my hometown and the 
surrounding area causing significant damage. Little more than a 
week later, record floods wrecked havoc in the central and 
eastern parts of our state. We also had another tornado sweep 
through the Western part of the state, causing four Boy Scouts 
to lose their lives.
    Many people saw pictures on television or in their 
newspapers of the damage throughout the Midwest and in Iowa. 
However, those pictures hardly do justice to this historic 
devastation. This severe weather system caused a 500-year flood 
event and the rivers overtook our communities.
    As Senator Harkin and I toured Iowa this became very 
apparent, especially when we flew over the effected areas. You 
could hardly see a dry piece of a land between any of the 
cities. Our rich Iowa cropland looked like lakes. Homes, public 
buildings, and businesses were inundated with water. You could 
only see the tops of many buildings. It was devastating and 
there is hurt everywhere.
    As the water recedes, people are attempting to start 
rebuilding their lives. However, this is a frustrating and 
discouraging process. Not only have these folks lost their 
belongings, family photos, and heirlooms they are faced with 
many tough decisions about where they should live and how to 
protect themselves from having to go through this experience 
again. A key component in the decision for individuals and 
communities on how to rebuild is what type and level of flood 
protection will be in place.
    The Army Corps of Engineers has been partnering with the 
State of Iowa in emergency and recovery efforts. I appreciate 
the assistance they have provided to Iowans. They have been 
assessing the damage and needs on the Federal levees affected 
by this disaster and are scheduling their emergency repairs. It 
is my hope that my colleagues in Congress will help to provide 
the moneys needed for the Corps to carry out these emergency 
repairs immediately.
    Since Brigadier General Walsh is testifying at this 
hearing, I would like to share a story which emphasizes the 
need for this emergency assistance. Senator Harkin and I were 
viewing the damage in Louisa County and the city of Oakville. 
This area experienced having approximately 4,000 feet of their 
levee wash away. Another opening had to be cut on a levee down 
stream to give the water somewhere to go. As you can imagine, 
the whole town had to be evacuated. It was completely 
underwater and folks are distressed. Senator Harkin and I 
called the General and personally asked that the Corps 
immediately begin assessing and putting into motion the 
emergency repair of this levee. We continue to work with the 
Rock Island District of the Corps on these efforts.
    Furthermore, after the Great Flood of 1993, it was decided 
that a comprehensive plan to integrate existing and needed 
projects into a coordinated system for flood damage reduction 
and floodplain management for the Upper Mississippi and 
Illinois Rivers was warranted. Congress authorized this plan in 
Section 459 of the Water Resources Development Bill of 1999. 
Earlier this year the Army Corps of Engineers completed the 
study. It shows that systemic flood protection is achievable. 
It now awaits congressional approval.
    I look forward to working with this Committee in the near 
future in evaluating and implementing such a plan. Adequate 
appropriations for this effort will also be needed so work can 
begin to reduce the risk of a repeat of floods like this year.
    Thank you again for letting me testify today about the Iowa 
floods. I would like to reiterate the need for additional 
Federal assistance to help the Midwest in our recovery efforts.
    As we've toured Iowa communities during the last month, our 
constituents often ask us to ``not forget'' about them. So, I 
bring that message to my colleagues. Iowans have great pride 
and resiliency. They aren't complainers, but they are hurt. I 
see it in their eyes every day as they sort through the rubble. 
We only ask that Congress give Iowans and those in the Midwest 
the same consideration that they gave the victims of other 
major disasters. Nothing more, nothing less.

    Senator Boxer. Senator Grassley, I am so pleased you are 
here.
    At this point, I want to put into the record, without 
objection, Senator Harkin's testimony. It really does match 
yours. He is a little more specific. I hope that his staff will 
share it with you, because I think he outlines some very good 
ideas.
    I won't take time, because I know all of our colleagues are 
under time stress. I do want to say one thing here. He says in 
his presentation, ``To give you some idea of the magnitude of 
the flooding, consider that since the 1850's, the highest flood 
level in Cedar Rapids had been 20 feet. The levees in Cedar 
Rapids are at 22 feet. Last month, the water level rose to more 
than 31 feet, well above the estimate 500-year flood level.''
    [The prepared statement of Senator Harkin follows:]

             Statement of Hon. Thomas Harkin, U.S. Senator 
                         from the State of Iowa

    Chairman Boxer and members of the Committee, I appreciate 
this opportunity to report to the Committee on the recent 
flooding in Iowa, and to share my views on the lessons we can 
draw from this disaster as we plan for similar events in the 
future.
    First, I want to publicly salute the professionals in the 
Corps of Engineers, who worked day and night both before and 
during the flooding to minimize damage. In addition, local 
governments and many thousands of volunteers worked around the 
clock to fight the flood waters, and they did a magnificent 
job.
    However, the storms and subsequent flooding were simply 
overwhelming. In Iowa, we had more rain in the first 6 months 
of this year than in any other 6-month period on record. The 
already-saturated soil, combined with downpours day after day, 
resulted in what has been characterized as worse than 500-year 
flood events on the Cedar River, which inundated Cedar Rapids, 
and on the Iowa River, which flooded Iowa City and a number of 
other communities.
    To give you some idea of the magnitude of the flooding, 
consider that, since the 1850's, the highest flood level in 
Cedar Rapids had been 20 feet. The levees in Cedar Rapids are 
at 22 feet. Last month, the water level rose to more than 31 
feet, well above the estimated 500-year flood level.
    In addition to the flooding, Iowa has been hit be a number 
of devastating tornadoes. Senator Chuck Grassley's hometown, 
New Hartford, was hit by an F5 tornado, killing two people. 
Just weeks later, the same town was engulfed by flood waters 
when a local levee failed to protect the community. Thousands 
lost their homes and businesses.
    The obvious lesson we have learned is that we need to 
substantially increase the resources devoted to preventing 
flood damage. The current level of funding is clearly 
inadequate.
    I am proud to have been the chief sponsor of the 1993 
Hazard Mitigation and Relocation Assistance Act, which 
substantially increased the FEMA mitigation program. And, now, 
funding has been further increased for states with an approved 
mitigation plan. Mitigation is absolutely crucial and we need 
to substantially increase our efforts.
    Where we have low-lying areas that are repeatedly flooded, 
an excellent alternative to building levees is to convert that 
land to parks and recreation uses.
    The Federal Government should increase assistance to cities 
like Davenport, Iowa, that are taking this approach. However, 
this approach will not work in most cases, due to topography or 
existing structures. I would also add that flood plain 
easements can be a very useful tool in rural areas as an 
alternative to levees.
    We need a formal assessment of what worked and what did not 
work during the recent flooding. But there are some things that 
are already clear.
    One obvious problem is that we have a hodgepodge of levees 
in Iowa and elsewhere across the Nation. Some levees are under 
the Corps authority, built to their specifications. Some are 
owned by cities. Others are owned by drainage districts or are 
effectively privately maintained.
    The ideal would be for the Corps to have responsibility for 
a national network of levees. However, I believe that, at a 
minimum, we should start with a regular program of Corps 
inspections of all significant levees, as Chairman Boxer 
proposed in the EPW-proposed version of the Corps 
reauthorization.
    Regrettably, that proposed program was sharply narrowed to 
the creation of an inventory of levees in the final version of 
the Corps reauthorization. That is important, but it is only an 
initial step. We should go further by requiring rigorous 
inspections that identify needed maintenance and improvements.
    The Corps budgets have been excessively tight for many 
years. In most cases, projects have been delayed at the design 
phase or construction phase for long periods because of lack of 
funding. Projects take far too many years to complete, and many 
do not get started at all. We need a substantial increase for 
the Corps and in many other areas of infrastructure 
improvement.
    We need to improve our ability to predict very high flood 
levels. In Cedar Rapids, I am told, the modeling was not 
sophisticated enough to predict the kind of flooding we had in 
June, which was so far beyond normal boundaries. If local 
officials and citizens had been given warning of the potential 
for such a flood, they could have taken precautions 
accordingly, and damage could have been reduced.
    Where we have reservoirs, I believe we need to consider 
operating with lower water levels in order to maximize flood 
protection. If we move major structures that might be damaged 
by significant water releases, this would allow for faster 
releases prior to water exceeding the spillway level.
    When we begin a flood-control project, we need to improve 
the coordination between the Corps of Engineers and the USDA's 
watershed structure program, which constructs small flood-
control structures in rural areas. These small structures can 
have a significant, positive impact, often at a reasonable 
cost. We need more conservation practices that slow the 
movement of water.
    Today, levees across the United States are mostly 100-year-
event levees. Given the realities of climate change and the 
greater frequency of severe weather, we need to revisit the 
assumptions behind this practice.
    I would also like to note that a significant part of the 
damage in Iowa was not caused directly by the flooding rivers 
or tornadoes. It was caused in places where storm-water pipes 
and sewer pipes are combined. As the system was overwhelmed, 
the waste water was pushed directly into people's homes. We 
need to provide more support to cities as they work to modify 
these systems--to protect both property and the environment.
    I am hopeful that the National Flood Risk Management 
Committee, which brings together Federal agencies as well as 
State and local interests, can make excellent recommendations. 
But the bottom line is the bottom line: We simply need more 
funding for flood mitigation.
    I thank the Committee.

    Senator Boxer. So something is happening out there. We can 
argue about why, and I don't want to get into it, because 
frankly, it is painful. We are not going to argue why. But we 
are going to do something about it together. I think we can. 
And that is the objective of this Committee under my 
chairmanship.
    So now I am going to, because Senator Klobuchar is such a 
good soldier, she said, please, let's hear from our two 
colleagues. So, Senator Durbin, you are recognized, followed by 
Senator McCaskill. We really welcome you. We know your 
schedules are tight.
    Senator Grassley. Can I go?
    [Laughter.]
    Senator Boxer. You may leave, sir, the teacher gives you 
permission. We look forward to working with you and Senator 
Harkin as well as all the Midwestern Senators.
    Senator Durbin. I would like to defer to Senator McCaskill, 
please.
    Senator Boxer. OK.

          OPENING STATEMENT OF HON. CLAIRE McCASKILL, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator McCaskill. I would like to thank my colleague, 
Senator Durbin. We share a river and we are neighbors, and it 
was very nice of him to give me just a minute. I need to go 
introduce a great Missourian who is going to be confirmed as an 
ambassador, hopefully, today.
    And I just want to say that my senior Senator from Missouri 
and I agree completely about this incident and the struggles 
Missouri has had over the last year. He and I have been 
together looking at damage from Mother Nature in southwest 
Missouri. He and I both obviously visited the flooded areas 
over the last few months. And he and I stand in lockstep to try 
to get this thing done.
    Missourians have had nine Federal disasters since June of 
last year. It has been a rough year. It is when it is rough 
that I stand in awe of the work ethic and the values of 
Missourians. My beloved State has the best that there is when 
it comes to communities that join together and do what is 
necessary to help one another. This flood was a great example 
of communities coming together and helping one another.
    We need to get these levees repaired. We are grateful that 
none of the Federal levees were breached in this incident. But 
I echo Senator Bond's comment that haste is important here in 
terms of getting the work done and the repairs done that are 
necessary. Obviously, we want to stand in vigilance to make 
sure the bureaucratic nightmares that sometimes go with 
assistance from the Federal Government are kept at a minimum. I 
know Senator Bond and I agree on that.
    I will place my statement in the record. I am very grateful 
to the very senior Senator from Illinois for giving me a couple 
of minutes so that I could weigh in on this very important 
issue to the State I love and to the people in that State that 
I love even more. Thank you, Madam Chairman.
    [The prepared statement of Senator McCaskill follows:]

           Statement of Hon. Claire McCaskill, U.S. Senator 
                       from the State of Missouri

    Chairman Boxer and Ranking Member Inhofe, I want to thank 
you for holding this hearing. As you are well aware, the entire 
Midwest Region has been devastated by recent flooding events. 
Missouri alone has had 22 counties, in addition to the city of 
St. Louis, declared disaster areas and an excess of 300,000 
acres of farm land were flooded, many of which remain under 
water and unable to be planted. So having this platform to 
express the needs of many Missourians will help send the signal 
that Washington is listening.
    This past year, Missouri have faced significant hardship. 
Except for 3 days in March, Missouri has been under a State of 
emergency since December 2007 and has had nine Federal 
disasters since June 2007. In fact, in March of this year, 
Missouri received another significant flooding event where 72 
of our counties and the independent city of St. Louis received 
disaster declarations. Just this one event took several lives 
and caused millions of dollars of damage across the state. And 
then we were hit again by last month's epic flooding.
    Madam Chairman, I had the opportunity to view some of the 
affected communities both by land and by air. I was escorted by 
Col. Lewis Setliff of the St. Louis District of the Army Corps 
of Engineers who helped guide me through the damage areas and 
provide me details off their extensive flood fighting efforts. 
Remarkably, Missourians at the State and local levels came 
together to prevent a significant amount of damage yet, the 
devastation was still overwhelming. It was like flying over an 
ocean right there in Missouri and while it was enough to take 
your breath away what was more astonishing was the resilience 
and determination of the people I met. Missourians have an 
unbelievable ability to overcome when faced with tremendous 
challenges, just as we did after 1993, but they won't be able 
to do it without the assistance of the Federal Government.
    Thankfully, during all of the severe weather Missouri has 
had this past year, none of our Federal levees were breached. 
This is a good sign that the repairs made along the Mississippi 
after 1993 were a wise investment. However, there is still work 
to be done. We did have several non-Federal levees breach and 
many others, including some Federal levees that are in need of 
repair. It's imperative that the Corps act swiftly to make the 
necessary repairs so that these communities are protected from 
any future weather events.
    Finally, Madam Chairman, I would just like to close by 
stating that while this recent event has caused significant 
damage to thousands of Midwest communities, I am confident that 
our local, State and Federal entities will do what is necessary 
ensure they are renewed and revitalized.
    This concludes my testimony.

    Senator Boxer. Thank you so much, Senator. We do look 
forward to working with everyone on this.
    Senator Durbin, welcome.

         OPENING STATEMENT OF HON. RICHARD J. DURBIN, 
            U.S. SENATOR FROM THE STATE OF ILLINOIS

    Senator Durbin. Thank you very much, Senator Boxer. I also 
want to thank Senator Bond and Senator Klobuchar for being part 
of this hearing. It is certainly timely.
    I can remember the flood of 1993. I was a Congressman and 
had a big chunk of our State that was under water. We had 
problems on the Mississippi River, problems on the Illinois 
River. I spent day after day, weekend after weekend, out 
sandbagging and working with local people. They gave us some 
consolation as we toiled away to try to save towns and homes 
and farms. They said, thank goodness this is a 500-year event. 
You have seen it for the last time in your lifetime and you can 
tell your grandkids about it.
    Well, 15 years later, we had a replay of this 500-year 
event, which I think should give us some pause here. It isn't 
just the nature and scope of this disaster. It was bad in my 
State, much worse in Iowa, I am sure bad in parts of Missouri 
and other places, Wisconsin. But the fact is, it isn't just the 
change in weather, which I think is part of it, but it is also 
the change in the way we live, the way we build, and the way we 
develop. I think it has had an impact in terms of runoff in the 
water reaching levels unheard of before. That I think has 
challenged all of us to look honestly at some of the larger 
policy and program decisions made at every level, Federal, 
State and local, and to ask are there things, thoughtful things 
that we can do that acknowledge what is happening here and try 
to avoid it coming again.
    I just have to tell you that the unusual thing about this 
set of disasters was I can always pinpoint the western part of 
my State along the Mississippi River as the most vulnerable 
part, and then usually the Illinois River, which feeds into it, 
a little bit south of where I live. This time we got hit not 
only in that area, but also in the southeastern part of the 
State, where the Wabash River and the Embra River breached the 
levees and the town of Lawrenceville and surrounding towns 
faced a lot more devastation than ever.
    And then north in our State, just west of Chicago, in the 
Rockford-Machesney Park area, we had additional problems of 
flooding. Some of those poor people were in for the third flood 
of the year when I went to visit them in their homes. They had 
pulled out of their homes and then came another flood and then 
it receded, they started reconstruction, remodeling their 
homes, putting in new drywall, and then came the third flood of 
the year. So something is happening here that I have never seen 
before in the time that I have lived in this State and paid 
closer attention to it. I hope that we will take a look at 
that, too.
    As Senator McCaskill said, I have to agree with her, when 
Mother Nature brings out here worst, people bring out their 
best all across America. I am so proud in Illinois of so many 
people who stepped forward, local elected officials, many of 
whom don't get paid anything, who worked night and day to try 
to save their communities. People who were working for levee 
districts, like the Sny, which is a 53-mile long private levee 
maintained by farmers just north of St. Louis, Senator Bond. 
These men and women were working night and day to save this 
levee, which they maintain with their own tax dollars. They are 
pretty good at it, incidentally.
    And we had volunteers, National Guard showed up as usual, a 
great number of State employees. People pitched in. Barack 
Obama and I were out there filling sandbags in Quincy, 
Illinois, trying to help local volunteers. Businesses that saw 
the potential damage, closing down their business and costing 
jobs, their workers left the offices, left their computers and 
were out filling sandbags. They pitched in because they knew 
they had to, and they did it over and over again. Those who 
were too young or too old and couldn't pitch in were making 
sandwiches and bringing out cold water to the volunteers. It 
was a terrific feeling, even though we were facing all this 
adversity, that so many people came together.
    Let me tell you a quick story, I mentioned Machesney Park 
to you. It is a story about a woman named Stacy. The Red Cross 
was able to move her disabled mother to a hotel, but Stacy, her 
husband and four kids stayed in a car at a campsite because 
their home was flooded and they couldn't afford a hotel. She 
wasn't alone. Over 500 homes that had been affected in 
Machesney Park, a small community in Winnebago County, without 
a public works department and without any trucks or other 
equipment to help them with cleanup efforts. You think about 
what their family has been through, and I met with a lot of 
them. They had a smile on their face, but they were going 
through some tough times, and a lot of people faced even worse.
    A couple of things that I thought we might think about in 
the future is first, rail operations. On rivers, it turns out 
to be a big deal. That railroad bridge can turn out to be 
critically important. There was a problem in 1993 with these 
bridges. There was a problem again in 2008. Many times, we 
don't have good communications between the emergency disaster 
agencies and the railroads. In this one situation, this 
railroad bridge was a swing bridge. And they were fearful that 
if they swung it open, it would destabilize the bridge and the 
waters would overcome it and knock it down. If they closed it, 
they were afraid that if the water got up to the bridge, it 
would start accumulating debris, holding back the river, 
putting more pressure on the levees behind it and they would 
fail, devastating tens of thousands of acres.
    It was a terrible moral dilemma. Thank goodness, the waters 
started to recede and the bridge did not cause that ultimate 
problem. But I will just tell you that there were anxious days 
there when the local people didn't know where to turn and there 
wasn't good communication with the railroads. We can do a lot 
better.
    I also want to tell you that even though the stories are 
behind us, the water is not. There are many areas still 
flooded, like Henderson County in my State. We have to worry 
about de-watering these counties. Your Committee has such an 
important job. I know that you have had fires in your home 
State, Senator Boxer, you have talked to me about them. I know 
how devastating they are to the people that you represent. 
Senator Bond's State of Missouri, Senator Klobuchar's State of 
Minnesota, we have all faced these disasters.
    I have felt, in the time that I have served in Congress, 
this is when we are called on as an American family. One of the 
members of our family is having a problem. It may not be in my 
back yard, but it is part of my family concern. This Committee, 
as much if not more than any other Committee in the Senate, is 
going to be asked to step forward. I hope that we will have an 
appropriations bill before we leave this year that includes a 
substantial commitment to disaster assistance, to give peace of 
mind to people in Missouri and Wisconsin and Iowa and Illinois, 
Minnesota and all throughout the Midwest, who want to know that 
at the end of the day, we are going to be there. We promised 
them they would, and we have to keep our word.
    Thank you, Madam Chair. I ask that my statement be made 
part of the record.
    [The prepared statement of Senator Durbin follows:]

           Statement of Hon. Richard J. Durbin, U.S. Senator 
                       from the State of Illinois

    Before I begin, I want to thank Chairman Boxer and Ranking 
Member Inhofe for holding today's hearing and giving me an 
opportunity to talk about our experience in Illinois.
    As we've just heard from Senator Harkin and Senator 
Grassley, Iowa and the rest of the Midwest is still reeling 
from weeks of flooding and tornadoes.


                            damage estimates


    We know from the Great Flood that devastated the Midwest in 
1993--and, more recently, from Hurricane Katrina and the 
California wildfires--that the losses from a natural disaster 
can be catastrophic and more than any one community or State 
can bear.
    In Illinois, we still don't know the full extent of our 
losses. Damage assessments are ongoing. Some places, like 
Henderson County, are still underwater.
    Although we were not as hard hit as our neighbors in Iowa, 
very early, very preliminary estimates put the costs of 
recovery and rebuilding for Illinois in the millions--maybe 
billions--of dollars.
    The flooding started in early June even before the banks of 
the Mississippi began to overflow, along the Wabash and 
Embarras rivers in southeast Illinois. In Lawrenceville, over 
10,000 people were without running water for more than a week.
    Then, alone the Mississippi, record and near-record water 
levels caused levees to break, flooding hundreds of thousands 
of acres of farmland and forcing people from their homes in 
towns like Keithsburg and Gulfport.
    Nearly two thousand homes have been impacted by the 
waters--everything from a flooded basement to complete 
destruction.
    Farmers in my State face at least $1.3 billion in crop 
damage and the loss of hundreds of thousands of acres of corn 
and soybean.
    Floodwaters have also caused damage to roads in the tens of 
millions of dollars.
    Then there are the losses you can't count in dollars. There 
are people like Stacy whose home in Machesney Park was flooded. 
The Red Cross was able to move her disabled mother to a hotel 
but Stacy, her husband, and her four kids stayed in a car at a 
campsite because they couldn't afford a hotel.
    Stacy isn't alone. Over 500 homes have been affected in 
Machesney Park, a small community in Winnebago County without a 
public works department and without trucks or any other 
equipment to help with the clean-up efforts.
    My heart goes out to everyone affected by the floods, 
especially those have watched their homes and livelihoods 
disappear under muddy waters.


                         commending illinoisans


    The damage is bad, but it could have been a lot worse had 
it not been for the hard work and determination of everyone who 
helped us prepare for the floods.
    They showed up day after day--Illinois residents, 
volunteers, emergency workers, members of the National Guard.
    In cities and towns all along the Mississippi, they worked 
around the clock to fill sandbags and fortify levees. Even 
after the flooding started, they didn't stop working. It's 
because of their perseverance that more levees--like Sny 
Island's--didn't overtop.
    It's not easy to stand your ground in the face of a force 
as mighty as the Mississippi, but these folks did just that. 
Their resolve and determination showed an amazing spirit at 
work.
    It's a spirit Senator Obama and I had a chance to see for 
ourselves when we helped sandbag in Quincy. I saw it again and 
again as I visited communities hit by the floods--from Grafton, 
south of Quincy on the Mississippi, to Lerna and Lawrenceville 
on the other side of the state, to Machesney Park up north by 
Rockford.
    No doubt it's a spirit at work today as these river 
communities bounce back from the flooding.
    As one City Council member said about her hometown of 
Grafton: ``Grafton people are resilient people. They're river 
people.''
    I also want to commend the Illinois departments and 
agencies who worked 24/7 to ensure that communities had the 
resources to fight the floodwaters. They're still working today 
to make sure these communities are equipped with the resources 
to recover.
    I want to thank FEMA, the Army Corps of Engineers, and the 
other Federal agencies whose help has been essential to helping 
Illinois fight the floodwaters.
    When Mother Nature brings her worst, we bring our best. 
Thanks to this team effort, even though the flooding may have 
been historic in some places along the river in Illinois, it 
looks like the damage will not be.


                            looking forward


    This is the second time in 15 years that the Midwest has 
been devastated by historic flooding.
    The Great Flood of 1993 was one of the costliest natural 
disasters to hit the United States. Back then I was a 
Congressman in central Illinois, with a big swath of the 
Mississippi River in my district, and I saw the devastation 
first hand.
    More than 50 people died and thousands more were evacuated 
from their homes as hundreds of levees along the Mississippi 
failed. The economic damage exceeded $15 billion.
    Experts told us this was a 500-year flood event. But then 
we found ourselves, 15 years later, facing a similar disaster.
    It's clear that these 200-and 500-year flood events are 
happening more frequently than every 200 or 500 years. It's 
also clear that we need to do a better job preparing for them.
    Often, weather-related disasters strike with no warning. 
But floods are different. We can see them coming. We can use 
the lessons of the past to better prepare for the future.
    With that in mind, I want to offer a couple of observations 
from our experience in Illinois.
    The first is the lack of clear direction on rail bridge 
operations during a natural disaster. It was a problem in 1993 
and a problem in 2008. Both times the railroad companies 
refused to listen to the local community's concerns and to lift 
a bridge out of the way of oncoming floodwaters. In 1993, their 
refusal caused the water pressure to build and a levee to 
overtop. This time around, we were fortunate that the water 
levels were not high enough to cause a repeat of that 
situation.
    During a flood event or other natural disaster, who has the 
navigation rights over an inland waterway? The answer is 
unclear. A second concern is dewatering.
    The flooding has receded in many parts of Illinois. But 
there are still some places--like parts of Henderson County--
that are underwater. FEMA, the Corps, the Illinois Emergency 
Management Agency, and locals have been working together to 
drain the standing floodwaters. But it's been weeks since the 
rain stopped falling.
    There has to be a better way to coordinate among the 
Federal, State and local partners to more quickly help 
communities hardest hit by the floods get back on their feet.


                               conclusion


    I want to thank Chairman Boxer and Ranking Member Inhofe 
again for this chance to speak about my state's experience. An 
important part of the rebuilding and recovery effort is looking 
back to see what lessons can be brought to bear now and in the 
future. These lessons help us better prepare for and mitigate 
the damage from future flood events.
    As we move forward to work on the second supplemental, I 
hope we keep in mind that disasters don't end with the news 
coverage. There are still communities across the Midwest trying 
to clean up and get on with their lives. We, the Congress, have 
to make sure we give them all the tools they need to do that. 
The communities and the people affected should not face this 
disaster alone. America, and this Senate, will stand with them.

    Senator Boxer. Absolutely. And I just want to thank you.
    Yes, Senator.
    Senator Bond. I just wanted to make two comments to my 
colleague and neighbor from across the river. No. 1, my father 
used to be a member of the Sny Drainage District, had a small 
farm at Pleasant Hill. So I know those people. They work well.
    No. 2, we had the same problem that apparently Machesney 
Park had with the town of Plattsburg in 1993. Plattsburg was 
flooded out in early June, they were halfway rebuilt, they 
flooded out again. I believe that in that instance, the people 
of Plattsburg agreed to a buy-out. With the help of the Corps 
and the State agencies we moved them out of that flood plain. 
It sounds like perhaps more buy-outs will lessen the risk to 
people in Machesney Park. I am a supporter of that where the 
local officials and citizens agree.
    Senator Durbin. I might add, Senator Bond, that in the city 
of Valmeyer, across the river from Missouri, Congressman 
Costello and I worked, and they literally moved the town, 
picked it up and moved it to high ground. One farmer stuck 
around, and he had some tough times ahead of him because he 
did. But by and large, those who moved felt that they made the 
right decision.
    And you also know, and I am sure the people from the Corps 
of Engineers can back me up, the world of levees changes south 
of St. Louis. North of St. Louis it is kind of a private 
endeavor and a local endeavor. South of St. Louis, there is 
much more Federal participation. I think that reflects the 
history of the Congress and the number of southern Senators and 
Congressmen who took care of their own long before you and I 
arrived here.
    Senator Bond. Fortunately, we can still earmark.
    [Laughter.]
    Senator Boxer. Fortunately, we are still here, for the 
moment.
    Senator Klobuchar. Senator Durbin, you are free to go. I 
don't want to rush you, but I know you don't want to miss 
anything.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. I wanted to express my sympathy to the 
States that were hurt even more than Minnesota, and that is 
particularly to Senator Grassley and Senator Harkin, to Senator 
Durbin and Obama in Illinois, and to Senator McCaskill and 
Senator Bond in Missouri and several other States that were 
victims of these floods.
    In Minnesota, I was listening with great interest to your 
story, Senator Durbin, about the one farmer that stayed behind. 
Because I went and toured Austin, Minnesota, about a week after 
the floods hit. The mayor and sheriff took me around, and the 
exact same thing happened. They showed me how they had moved 
through a long-term 10-year flood mitigation project, they had 
moved about 50 homes. They weren't expensive homes, so it was 
fairly easy to do. They had turned this whole area and the 
river into a park. It is a beautiful park, with bike paths, 
things like that. There was one guy that wouldn't take the buy-
out, wouldn't move. They showed me his house; it was completely 
wrecked Because he wouldn't take it.
    So they were able to really tell which businesses and 
houses needed to move and were able to avert severe damage. It 
wasn't just the individual home buyers, which was interesting 
to me, they saved the taxpayers tons of money. Because in the 
other floods, in Austin, Minnesota, by the way, the home of 
Hormel Foods, the home of Spam, in other floods in the past, 
the sewer system had backed up. So it had cost taxpayers a lot 
of money. This time, that didn't happen at all. We saw great 
flood mitigation projects in Winona and in Rochester, 
Minnesota, so they also withstood some of the damage.
    That is not to say that we didn't experience enormous 
damage in this flood. Several of our counties were declared 
disaster areas. We had the crop damage, especially with corn, 
and some of the farmers tried to replant with soybeans at the 
end. But that was difficult. Then finally, we lost the life of 
a man who was simply driving down a country road to help out 
his daughter and get a sump pump, middle of the night, storm is 
raging. He is driving down the road, and suddenly the pavement 
just went out from under him. I went to the spot, and it was 
like from here to that wall where the road had just broken down 
into the culvert behind. His car went down, another car landed 
on his car. And that driver, because his car was there first, 
actually survived, the one on the top.
    But it just again brought home to me, Madam Chair, the 
importance of this infrastructure funding, the importance of 
thinking ahead with these floods, and using this as an 
opportunity for public works projects at a time when our 
economy is suffering, that we really have to focus on 
infrastructure.
    I see our friends who are going to testify, I remember 
seeing you in New Orleans as we talked about the levee issues, 
that we should see this as a way of saving lives. But we should 
also see this as an economic development opportunity for our 
Country. Thank you very much.
    Senator Boxer. Thank you, Senator.
    I know both Senators have to leave. We thank you so much.
    Now it is my pleasure to ask Hon. John Paul Woodley, the 
Assistant Secretary of the Army, Civil Works, and Brigadier 
General Michael Walsh, Commanding General, U.S. Army Engineer 
Division, Mississippi Valley, to come forward.
    Mr. Woodley, we will give you 7 minutes instead of five, so 
that you don't have to rush through your statement. Then if you 
need more time, we are happy to give it to you.

STATEMENT OF HON. JOHN PAUL WOODLEY, ASSISTANT SECRETARY OF THE 
 ARMY, CIVIL WORKS ACCOMPANIED BY: MAJOR GENERAL DON T. RILEY, 
   DEPUTY COMMANDING GENERAL, CIVIL AND EMERGENCY OPERATIONS

    Mr Woodley. Thank you, Madam Chair.
    Distinguished members of the Committee, we very much 
appreciate the opportunity to testify before the Committee and 
report to you on the June 2008 Midwest floods.
    Accompanying me today is Major General Don Riley, who is 
Deputy Commanding General for Civil and Emergency Operations, 
and Brigadier General Michael Walsh, Commanding General of the 
Mississippi Valley Division. General Walsh will report to you 
on the specifics of the recent flood, and I am going to discuss 
the current program activities of the Corps addressing the 
bigger issue of flood risk management.
    I have a complete statement that I would ask for permission 
to put into the record.
    Senator Boxer. Absolutely, it will be in the record.
    Mr Woodley. Responsibility for flood risk management in the 
United States is shared among multiple Federal, State and local 
government agencies, with a complex set of programs and 
authorities. The Corps of Engineers and FEMA have programs to 
assist States and communities in reducing flood damages. 
However, the authority to determine how land is used in flood 
plains and to enforce flood-wise requirements is entirely the 
responsibility of State and local governments.
    Many reports have offered lessons from prior floods and 
recommendations for the future. Common themes have included a 
call for improved interagency coordination and emphasis on 
public safety and the need for improved flood risk 
communication. Many have also called for greater use of flood 
plain management measures by local and State government, 
including wise land use planning, flood-proof building code 
requirements, easements and relocation of flood-prone 
structures in conjunction with traditional engineered flood 
water management structures.
    The Midwest floods of June 2008 have again highlighted the 
importance of evaluating and communicating the risks to the 
public and decisionmakers associated with levee systems. There 
are many questions that need to be answered. How many miles of 
levees exist? What is the condition of these levees? Which 
entity is responsible for them? What areas are the highest 
risk? How should Federal, State and local resources be 
prioritized to reduce these risks? And what can be done 
together in the interim to reduce risk?
    In 2006, the Corps of Engineers began a major effort to 
work on answering these questions. Using $30 million of the 
Fiscal Year 2006 supplemental appropriation from Congress, the 
Corps created its Levee Safety Program to assess the integrity 
and viability of levees and recommend actions to ensure that 
levee systems do not present unacceptable risk to the public, 
property and environment.
    Over the last 2 years, the Corps has made great strides 
toward a National levee inventory for levees that are active in 
the Corps' levee program and a methodology for technical risk 
assessments of existing levees. Although great advances have 
been made in collecting and assessing information about levee 
systems, much remains to be done and detailed information is 
still needed about many Federal levees, most non-Federal 
Government levees and all private levees.
    Also in 2006, the Corps established the National Flood Risk 
Management Program to take the first step of bringing together 
Federal agencies, State and local governments and private 
sector entities with a stake in flood risk management. The 
objective is a unified national flood risk management strategy 
that eliminates conflicts between programs and takes advantage 
of all opportunities for collaboration.
    On November 8, 2007, as the Chairman has previously 
indicated, the Water Resource Development Act of 2007 became 
law. Title IX of this statute, cited as the National Levee 
Safety Act of 2007, calls for recommendations for a national 
levee safety program in addition to the inventory and 
inspection of levees. The Act complements many of the ongoing 
activities of the Corps' Levee Safety Program.
    The Administration was able to include funding in its 
Fiscal Year 2009 budget to begin the work outlined in Section 
2032 of WRDA 2007 that would assess the vulnerability of the 
United States to flooding. The study will assess the extent to 
which existing programs operate, individually and together, and 
develop recommendations for improving the effectiveness, 
efficiency and accountability of these programs.
    In summary, Madam Chair, the responsibility for flood risk 
management in the United States is shared between multiple 
Federal, State and local government agencies who all must work 
together to effectively address these complex issues. While 
great strides have been made in the last 2 years with the 
leadership of this Committee, we remain to implement many of 
the things that have been put in place, and there is much work 
that needs to be done. I am delighted to appear before you and 
answer any further questions you may have.
    [The prepared statement of Mr. Woodley follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you very much, Mr. Woodley.
    Brigadier General Walsh, welcome.

  STATEMENT OF BRIGADIER GENERAL MICHAEL J. WALSH, COMMANDING 
    GENERAL, U.S. ARMY ENGINEER DIVISION, MISSISSIPPI VALLEY

    General Walsh. Madam Chair and members of the Committee, I 
am honored to appear before you today and report on the 
response of the Corps of Engineers Mississippi Valley Division 
during the Midwest flood event on the Mississippi in June 2008.
    My testimony addresses both the response of the extensive 
flooding in the Midwest area as well as how we continue to 
support and provide assistance to the people of this region in 
the recovery efforts from this significant event. The Corps' 
first concern is always to ensure the safety of U.S. citizens. 
We cannot stress enough that each and every citizen should 
maintain situational awareness of current and future flood 
events, stay in touch with the latest updates and warnings, 
particularly with the changing weather and river conditions as 
monitored and forecast by the National Weather Service; have 
evacuation plans prepared and implemented and stay away from 
flooded areas and moving waters unless involved with the flood 
fight effort.
    In March of this year, the focus of the Corps' flood 
response efforts was centered on the lower Mississippi River 
from Arkansas to Tennessee down to the Gulf of Mexico. In June, 
our focus shifted to the middle and upper reaches of the 
Mississippi and its tributaries, where extensive flooding, in 
some locations record-setting flooding, occurred. Many 
Mississippi River tributaries, including in the Cedar, Des 
Moines and Iowa Rivers, reached record and near-record stages. 
The climate conditions early this spring led to continuous 
weather systems moving through the middle section of our 
Country. These systems resulted in rainfall amounts twice the 
normal level for that time of year.
    This record rainfall led to rivers and streams not only 
being filled to capacity, but in numerous locations causing 
over-bank flooding. The magnitude of the Midwest flood event of 
2008 adversely impacted and continues to impact areas along the 
Mississippi River and its tributaries from Wisconsin and 
Minnesota to Arkansas and Tennessee. The Cedar River set new 
record stages, reaching 6 feet above the 1999 record stage at 
Cedar Falls, Iowa, and reaching 11 feet above previous records 
at Cedar Rapids, Iowa. The Iowa River in Iowa City, Iowa, 
crested at three feet above the 1993 record stage, flooding 
facilities in the University of Iowa campus as well as other 
areas in the city.
    Record stages were set in over 47 gauge stations on more 
than 12 tributary rivers and creeks. The Mississippi River set 
new record stages at Keithsburg and Gladstone, Illinois, and 
Burlington, Iowa and approached record stages in many areas. 
Within the Mississippi Valley Division, specifically in the 
Rock Island and St. Louis Districts, a total of 19 non-Federal 
levee projects and 6 Federal levee projects, all under the 
Public Law 84-99 program, were over-topped along the 
Mississippi River and in the Iowa and Turkey River basins. 
However, of the 200 levee projects in the 84-99 program in 
those two districts, 175 did not over-top.
    The locks at the locks and dams from 12 to 25 on the 
Mississippi and the Calcasieu River were taken out of 
operation, as flood waters over-topped the facilities, closing 
navigation to a major reach of the upper Mississippi River. In 
response to these historic flood events in the Midwest, 
reservoirs were operated in accordance with their established 
water control manuals.
    In addition, the Corps responded through emergency support 
to State and local governments as well as through mission 
assignments from the Federal Emergency Management Agency, FEMA. 
Emergency operations centers responded to a variety of flood-
fighting activities on a continuous basis from our district 
offices in St. Paul, Rock Island, St. Louis and Memphis 
Districts.
    The Corps also provided assistance to State and local 
governments through our own authorities, as well as through the 
mission assignments from FEMA. These missions included 
emergency response, technical assistance for all phases of 
debris management, inspection of water and water treatment 
systems. We assisted in the assessment of temporary housing 
needs and conducted assessments for the provision of temporary 
emergency power through the deployment of our 249th Engineer 
Battalion and provided support for the power needs of critical 
facilities, including the University of Iowa hospital.
    Approximately 1.7 million liters of drinking water were 
provided to the State of Iowa, as well as critical public 
facility assistance and engineering design for repair and 
restoration of public schools. At the peak, there were 239 
personnel engaged in providing flood-fighting assistance. 
Approximately 13 million sand bags, 100 pumps, 3,000 rolls of 
polyethylene sheeting were provided to support the local and 
State efforts.
    I visited many of these impacted areas on several 
occasions, and I have had the opportunity to talk to a lot of 
people and see the efforts put forth to control the situation. 
I also had visited the Sny Island Levee District in Illinois 
and watched at least 10 bulldozers continuing to push sand back 
up onto the levee to bolster the fight, to meet the predicted 
event. This example shows how the citizens of the regions 
responded heroically to the difficult challenges in these past 
few months.
    The U.S. Army Corps of Engineers will coordinate an 
interagency levee task force, comprised of Federal, State and 
local agencies whose purpose is to conduct a regionally 
coordinated assessment of flood risk management systems in the 
areas affected by the 2008 flood. The task force will offer an 
opportunity for all participating agencies to address a rapid 
and effective response to damaged flood systems that will 
minimize future risk to life and property while ensuring an 
effective inter-agency approach to flood damage mitigation, 
including opportunities for non-structural alternatives in a 
collaborative manner.
    Activities are currently underway to assess damages to 
flood damage reduction projects that are actively enrolled in 
the Corps' rehabilitation and inspection program, leading to 
the subsequent repair of those projects. As accurate rainfall 
and river forecasts are vital to the protection of human life, 
property and business operations as the 2008 floods, 
reemphasized, we will also put together a rainfall and river 
forecasting summit with Federal agencies, State and local 
government entities and commercial interests and the public. 
This is planned for the October timeframe to determine what 
went right, what went wrong and what can be improved in the 
river forecasting process.
    The recent Supplemental Appropriations Act provided $600 
million for the Corps to address multiple recent natural 
disasters, including the flooding in the Midwest. The Corps 
will continue to work with our partners in the Federal, State 
and local agencies to repair flood risk management 
infrastructure as well as explore other means for reducing the 
risks of future flooding.
    Again, thank you for allowing me to testify here today, 
Madam Chair. This concludes my testimony.
    [The prepared statement of General Walsh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you very much.
    Mr. Woodley, as you noted in your testimony, most of the 
levees that were over-topped were non-Federal levees, levees 
built and maintained by individual farmers and property owners, 
or local or State governments. The National Levee Safety Act 
included in WRDA 2007, which you alluded to, would inventory, 
inspect and assess levees that fall within the Federal levee 
program. That would cover a significant amount of the Nation's 
levees.
    However, the program could be expanded to include every 
levee in the Country, including levees that failed in the 
Midwest flooding. My question is, would the Corps support that, 
and what kinds of resources do you believe we would need to 
make available to make that program work? Whoever would like to 
address that.
    Mr Woodley. Senator, I believe we would support a 
comprehensive levee assessment, something along the lines of 
the dam safety programs that we have underway in cooperation 
with State authorities. I think that the investment required 
would be very substantial, both Federal and State, although I 
think that it would not be very large compared to the losses 
that are suffered.
    Senator Boxer. Do you agree with that, Brigadier General?
    General Walsh. Yes, ma'am.
    Senator Boxer. And do you as well?
    General Riley. Yes, ma'am, of course. And the bill 
authorizes $20 million per year to do that inventory. If I may 
just point----
    Senator Boxer. But that is not an inventory for everything. 
It is just the inventory for----
    General Riley. It does authorize an inventory of more than 
just the Corps projects.
    Senator Boxer. Of every levee in the Country?
    General Riley. Yes, ma'am. The bill authorizes us to----
    Senator Boxer. OK, hold on 1 second.
    I was told not every levee is covered. But the point is, so 
you do feel there is enough funding now to do every levee? 
Because my understanding is you were just doing those levees 
that fall within the Federal levee program. Am I incorrect in 
that?
    General Riley. Ma'am, the funding available now is only for 
what is in the Federal program. If I may refer to the chart 
just----
    Senator Boxer. Before you get off that, I want to be 
specific. So the funding that you have available to you right 
now is just for the Federal levees. Did you say it is $20 
million?
    General Riley. We received, in the 2006 supplemental, $30 
million, which began our levee inventory.
    Senator Boxer. Good.
    General Riley. And in the latest supplemental this year, we 
have allocated $10 million of that supplemental to continue the 
inventory of the levees in the Federal program.
    Senator Boxer. OK, so my question is, how much more would 
be needed to get everything assessed, all the levees assessed?
    General Riley. I don't have that figure on all of them, but 
we will get that to you.
    Senator Boxer. Mr. Woodley, I would so appreciate it if you 
could get it. Because you have a lot of friends here who want 
to see us be more proactive. So if you could get that number to 
me, that would be very helpful.
    Senator Boxer. Yes, ma'am.
    Senator Boxer. Did you want to add something? I cut you 
off, Mr. Riley, so go ahead.
    General Riley. If I could refer to the chart, which shows 
the total number of levees. Across the bottom of this chart are 
four general categories. The first category are those that are 
built and maintained by the Corps of Engineers. There are about 
2,100 miles of those, the majority of which are in the lower 
Mississippi Valley.
    The second category are those levees that are built by the 
Corps and then we turn them over to sponsors to locally operate 
and maintain. The third category----
    Senator Boxer. And how many of those?
    General Riley. That is almost 10,000 miles, 9,650 miles.
    The third category are those that are locally built, but we 
have enrolled them in our rehabilitation and inspection program 
under Public Law 84-99. And those three categories----
    Senator Boxer. And how many of those?
    General Riley. Those are 2,250 miles. So about 14,000 miles 
in the Federal program, some built by us, some not built by us.
    Now, the other----
    Senator Boxer. And excuse me for interrupting, because you 
are educating me. We are talking about here the Midwest or the 
whole Country?
    General Riley. This is the entire Country.
    Senator Boxer. The entire Country.
    General Riley. About 14,000 miles of Federal and non-
Federal programs.
    Senator Boxer. That is very helpful. I am going to read it 
back to you. Twenty-one hundred miles are Corps-maintained, 
10,000 miles were approximately turned over to locals, the 
Corps built it, and then 2,250 locally built?
    General Riley. Yes, ma'am.
    Senator Boxer. That is very helpful.
    General Riley. And then the last category, the fourth 
category, is an unknown number of locally built and maintained.
    Senator Boxer. I see. What was the 2,250? I thought that 
was locally built.
    General Riley. That was locally built and we have enrolled 
them into our Federal program.
    Senator Boxer. OK.
    General Riley. The others are locally built, nobody in the 
Country has a handle on those. But your last bill, the WRDA 
2007, authorizes us to inventory all those levees in the 
Nation. So we are now authorized to do that.
    Senator Boxer. OK. So just so I understand, what you are 
doing now is you are inventorying all the locally built that 
have not been turned over?
    General Riley. Ma'am, if I could flip to the next chart.
    Senator Boxer. Yes, please.
    General Riley. Then I will show you where we stand on our 
inventory. Of those 14,000 miles of levees in the Federal 
program, by the end of this year we will have completed a 
detailed inventory of 9,800 miles of those. So the 14,000 miles 
we have in the Federal program, we have identified those, they 
are in the data base. We have completed a detailed inventory of 
about 9,800, that will be complete by the end of this year. 
Those again are the Federal levees.
    So we will have to then continue on with the remaining 
funding to complete detailed inventory of those Federal levees. 
The detail I speak about, these show the features of the levees 
that are in the data base, but there are about 200 data fields 
that go in that fill in all the data. So it is a detailed 
survey.
    So once we complete the 14,000 miles in the Federal 
program, then we will proceed with all of those other locally 
built and maintained that really nobody knows how many are out 
there, because there are many, many private levees.
    Senator Boxer. I think it is an excellent move. I wanted to 
ask, as you build the data base, are you also including in that 
the, if the levees are strong, if they are weak, if they are 
problematic, or is that another step?
    General Riley. That is another step. That will fill in all 
the detailed data of the physical characteristics of the 
levees. Then we will conduct, in our inspection program, under 
Public Law 84-99, and as we are funded, we will conduct a 
portfolio risk assessment. So we have routine annual 
inspections, we have inspections every 5 years that are 
periodic. Then the highest risk levees, we will conduct an even 
more detailed study where we will look at even sub-surface 
conditions to determine the characteristics and the capability 
of those levees to withstand any size flood.
    Senator Boxer. Major General, can you tell us a timeframe 
here that you are working off of? Because here is the thing. 
What I really want to do is start, obviously, as we get the 
information, have a list, what are the most endangered levees, 
where do we have to work, where does it not pay to fix the 
levee, maybe it pays to move folks, maybe it pays to turn it 
into a flood plain, all these other things. Because we really, 
in this Committee, we want to do kind of an emergency levee 
bill to just give you a little more juice as we move forward to 
get more funding. We know that the appropriators can do it. But 
if we have an overall bill that identifies the priority.
    So where are you on the timeframe here?
    General Riley. Yes, ma'am, on this, of course, the 9,800 
miles, by the end of this year, and the rest of the 14,000 
miles we will complete in the next 2 years after that. That is 
in the Federal program. Then we will also, in 2 years, begin 
risk assessments on those levees to determine which ones are 
the greater risk.
    Now, at the end of this year, we will have this website 
with all this data on it. It will be accessible to the public. 
All the data won't be accessible, because we will have to 
restrict some of it. But it will be accessible of course to the 
Corps, FEMA, and then other Federal, State and local agencies 
that work in that program. We will begin next year to make 
those priority choices of which ones are at the highest risk.
    Senator Boxer. Let me ask you this, and anyone can answer 
it. Could we speed up that program if we gave you, if we made 
it a Manhattan Project, if we just said, look, at the rate 
these storms are coming, we need to move quicker? So is there a 
way, if we were to, I am not asking your opinion whether we 
should or shouldn't, because that is our decision. But if you 
were able to, say, get double the funding, could you double the 
time in which this could be done?
    General Riley. Ma'am, I think the best way to approach that 
is through your WRDA bill you authorized a national levee 
safety committee. Our Director of Civil Works is here. He is 
the chair of that committee. Mr. Woodley has directed that 
committee now be stood up. Your bill requires within 180 days 
that they come back to you and Mr. Woodley and then the 
Congress with a national strategy. So that has to be done in 
less than 6 months from now.
    I think that committee, which include representatives from 
all over the Nation, external to the Corps, chaired by our 
director, will provide you a good analysis of that.
    Senator Boxer. Of where we go from there. So Mr. Woodley, 
if in 6 months you are ready, you would be able to tell me at 
that time whether or not additional funding would be able to 
move this process along, is that right?
    Mr Woodley. Yes.
    Senator Boxer. OK. Well, I look forward to that.
    Mr. Woodley, Carl Strock, former Chief of Engineers of the 
Army Corps, has testified about the value of wetlands in 
helping to prevent and mitigate funding. Chief Van Antwerp 
similarly testified to their benefits. In the upper Mississippi 
River basin, there has been considerable wetland loss in many 
of the affected States. Iowa has lost 89 percent, Illinois 85, 
Missouri 87 percent. Do you believe this loss of wetlands may 
have helped contribute to these regular devastating floods in 
the region? And are there any policies you could support that 
could help turn that wetlands loss around?
    Mr Woodley. Senator, I am quite confident that loss of 
wetlands nationwide has altered hydrologies in ways that make 
the severity of floods greater than they otherwise might have 
been. Now, when a flood is 11 feet above the historic figure, 
it is hard to say that there would not have been a flood in 
that location regardless. But this is one of the prime reasons 
for our national policy of restoration of the Nation's 
wetlands. Of course, our regulatory program seeks to protect 
existing wetlands, and we have also embarked on a policy or a 
planning process in the Upper Mississippi to engage in a number 
of aspects of ecosystem restoration on the Upper Mississippi 
and its tributaries that I believe, in, the planning process 
and we should be able, or I hope to be able to make a 
recommendation to Congress very soon.
    Senator Boxer. Good.
    Mr Woodley. The other thing that I would mention in this 
context is the very strong provisions in the Farm Bill that are 
available for farmers to devote parts of their appropriate 
land, on a voluntary basis, for wetlands restoration and 
preservation.
    Senator Boxer. I fought for that one.
    Mr Woodley. It is a very important policy.
    Senator Boxer. It is. From my own experience, when I first 
got involved with the Army Corps, it was so many years ago. In 
those years, it was before I even got to the Congress, it was 
in local government in the 1970's. The Corps thought, concrete 
channel, concrete channel, that was basically the mind set, how 
do you get that water fast, we move it out. Then through the 
years, I have watched with just great relief as the Corps has 
embraced these other kinds of strategies to allow the water to 
spread out and go slower and so forth. Certainly, in my 
experience in California, those wetlands are just a tremendous 
addition to any flood control that we are going to do.
    So I look forward to that. I think, again, a lot of the 
times, you are put in a difficult position. What we need from 
you is just not, you should do this, but if you were to be able 
to restore wetlands, it would mean X, it would mean Y. These 
are the things we need from you, and then we have to make a 
policy choice.
    Mr. Woodley, are you aware of the findings in a recent 
report released by the U.S. Climate Change Science Program, in 
cooperation with NOAA, titled Weather and Climate Extremes in a 
Changing Climate? This study shows that the last few decades 
have brought more heavy summer rainfall, especially to the 
central United States. This trend toward heavier precipitation 
is caused by global warming primarily, because warmer air can 
hold more moisture.
    This report projects that the trend toward heavy 
precipitation will continue. For example, those big storms in 
the Midwest that historically would be seen once every 20 years 
could happen once every 5 years by the end of the 21st century. 
How is the Army Corps taking into account this latest science 
indicating a trend toward heavier rainfall events in the future 
and the implications for flood management?
    Mr Woodley. Senator, we are examining climate change 
aspects within our organization through our Institute of Water 
Resources, which is our policy institute that is engaged in 
that sort of thing and that follows that very closely. In fact, 
it is something that they are very proud of, that organization 
that deals with that on an international scale actually won a 
Nobel Prize last year. One of the members of the organization 
is a staffer at our Institute of Water Resources. I was there 
last week, and they have put his Nobel Prize on the wall there. 
They are very, very proud of it.
    So we are keeping very close tabs on the science of climate 
change, and I believe I am going to be seeing a draft white 
paper on the engineering aspects of climate change. It is 
mainly something that would affect us within our own program in 
the projections that we make and the risk assessments that we 
make. We are transitioning to consider these aspects as aspects 
of risk and we are recognizing the practical impossibility of 
absolute protection. I visited Cedar Rapids and the people 
there are, I would encourage anyone who wanted to see the human 
spirit at its most noble to visit Cedar Rapids and see the way 
that people are coping with it.
    But the thing that I saw, in the work that I do, I would 
say engineering is probably not going to prevent or protect 
against a flood that is 11 feet above any experience we have 
had before. But we need to express the risks to people, what 
are your risks. And the other thing about a levee is that 
levees are just human structures, they will be over-topped, 
they will fail, they will develop weaknesses, animals will 
burrow into them, every kind of thing can happen to a levee. It 
is a very fragile structure, and it holds back an enormous 
force of nature.
    At any rate, that is a long way of saying that we are very 
much following the matters that you describe and continuing to 
use them in a very dynamic way to inform the recommendations 
that we make to Congress.
    Senator Boxer. Mr. Woodley, I found that testimony to be 
extremely straightforward, and I appreciate it. I am going to 
say it back to you and see if I heard you right.
    When I asked you, and I think this would be interesting for 
Senator Carper, whether or not the Corps was taking into 
account global warming in its projections of what they have to 
do and what people have to expect, Mr. Woodley basically said, 
we can't promise absolute protection, because of the way these 
storms are coming. And I think that is an important point for 
all of us to hear. Because unless we build, I don't know what, 
fortresses around our cities, this is a problem. And this isn't 
your job, it is ours. We need to get a handle on this global 
warming and we need to do something so that 25 years from now, 
with other people sitting here, of course, Tom will still be 
here, 25, 30, 40 years from now, and who knows, Mr. Woodley, 
you have proven yourself to be, you have been around a while. 
So you might be here.
    And when somebody says, oh, my God, what can you do? And we 
are not going to be able to give them a good answer unless we 
today, and it isn't you, it is us, and it is a future 
President, takes strong action to make sure that the 
temperatures don't go up 3, 4, 5, 6 degrees average 
temperatures. Because you are already saying it is getting 
problematic. I appreciate that. Because I will tell you, when I 
was a kid growing up, we thought, no problem, we can master 
this. And you know what? So far, we have. But if we can't get a 
handle on global warming and reverse what could happen in the 
worst of circumstances, I don't know that levees are going to 
matter that much.
    But I do have a question for General Walsh. Of the Federal 
levees that were over-topped, how many of these levees remain 
structurally sound, and how many will need substantial 
structural work to once again operate at a functioning level? I 
was really glad that they held pretty well. But how many were 
over-topped? Do we know?
    General Walsh.
    [Off microphone.] There were six Federal levees that were 
over-topped.
    Senator Boxer. Could you make sure you turn on your 
microphone?
    General Walsh. Madam Chair, there were six Federal levees 
that were over-topped in the area. Two of them were rated at a 
100 year level of protection, three were at 50 years. We really 
need to wait until the flood waters go down some more and 
damage survey repair teams will go out. Then we will write up 
project information reports, and then fund them and go into the 
repair process.
    Senator Boxer. Good. So this is interesting. You said two 
were 100 year?
    General Walsh. Two were rated at a 100 year level of 
protection.
    Senator Boxer. And those were breached?
    General Walsh. And three were 50 year.
    Senator Boxer. Wow. And 100 year is the biggest that we aim 
for, right? The biggest flood that we try to protect from?
    General Walsh. That is where we start, FEMA works their 
insurance piece. But there are 500 year levees and even higher.
    Senator Boxer. There are 500 year, OK.
    General Walsh. Yes, ma'am, and if I may?
    Senator Boxer. Please.
    General Walsh. For any of those, any system that we take a 
look at, we make an assessment based on the risk and will 
design a levee based on the reduction of risk in that area. It 
may be at any level of protection. And 100 year only refers to 
FEMA's protection for the National Flood Insurance Program.
    Senator Boxer. Do you work with private insurers ever just 
to find out what they are doing in some of these flood-prone 
areas? Mr. Woodley, do you ever talk to them about it? Because 
we have heard stories that private insurers are not coming in 
to some of these areas.
    Mr Woodley. Senator, I am not aware of any direct 
interaction we have with them on particular cases. I believe 
that we have been consulting with the trade groups and 
representatives of the industry as a whole in understanding and 
getting a better understanding on our own part of risk 
management and the tools that they use in their business for 
risk management and how to express it. Because that is a 
tremendous challenge for us right now.
    Senator Boxer. I have one last question, then I am going to 
turn the gavel over to Senator Carper to run the rest of the 
hearing as he sees fit. This is to Mr. Woodley.
    In 1993, devastating floods hit much of the same region 
that was hit this year. Following the Midwest flood of 1993, 
President Clinton chartered the U.S. Interagency Task Force on 
Flood Plain Management, headed by General George Galloway of 
the Corps. He wrote the Galloway Report. The report argued that 
the responsibility for flood plain management needed to be more 
clearly defined among Federal, State, tribal and local 
governments. The report also acknowledged the critical 
ecological services, such as nutrient and water uptake provided 
by wetlands and upland forests. It noted that loss of wetlands 
significantly increased runoff, contributing to an area's 
susceptibility to flooding.
    Are you familiar with this report, and can you tell us the 
status of those recommendations, how many were implemented and 
how many still remain to be implemented?
    Mr Woodley. I certainly am, and I am very familiar with 
General Galloway as well, who is, I think, one of the Nation's 
premier experts on flood risk policy. We consult with him all 
the time. I believe the answer is that many of the 
recommendations have been partially implemented, a few have 
been fully implemented. I think to the extent they have been 
implemented the effects of this year's flooding have been 
ameliorated. There are some aspects of the report that we are 
still working our way toward as a Nation. And some of them have 
not been fully taken to heart.
    But I believe that the recommendations of that report 
remain valid and that we can see, to the extent that they have 
been implemented, that the effects of the subsequent flooding 
have been ameliorated.
    Senator Boxer. Here is the thing. I haven't read it. But 
would you commit to me that the Corps would take a review of 
the 1993 task force report to either reaffirm its 
recommendations or put forward new ideas? I think a lot of 
times, we have a crisis and we write a report. And this one, 
here it is. This is the summary. And I am sure there are some 
things in there that you would want to do and some things you 
wouldn't.
    Would you commit to me that you would do a thorough review 
of this report and get it to me as to which recommendations you 
think still have merit, which ones have been done? I mean, this 
is 1993. So if you would make that commitment?
    Mr Woodley. Senator, I will do something better than that. 
I will task the Levee Safety Committee that the Congress 
created in the last WRDA bill to make that their first order of 
business.
    Senator Boxer. That would be wonderful. I think that is 
great. Because it may be that there are six or eight or ten or 
five things in there that we just didn't do. And there is 
nothing about blame. It is the nature of humanity, we have so 
many things on our plate.
    But I think if you could do that, I am just thrilled with 
that answer, and I really look forward to going over that with 
you. When you get that done, please come see me and we will 
take a look at it. It may make the job of your task force a 
little easier, because maybe half the things that we need to do 
are already detailed in that report. That would be good. And we 
can move faster.
    So with that, let me just say to all of you, I thank you 
very much for being here today. We are on the same team on 
this. The main thing I need from you is your honest appraisals. 
I think I have gotten that today. That is all I can ask you 
for. Then the rest is up to us. So if you just give us your 
opinion and then we will make the policy decisions, that is all 
I ask. I do hope and pray that we don't have to have a lot of 
these hearings after the fact.
    But I am a realist, like you are, Mr. Woodley, and we are 
in this difficult moment, for whatever reason. The main thing 
we need to do is prevent as much as we can, much of this from 
happening. Then when something does happen, respond quickly and 
do the mitigation after the fact. And whatever that mitigation 
is, we have to be honest. And you were very honest today and I 
really appreciate that.
    So I will turn the gavel over to my dear friend, such a 
great member of this Committee, Senator Carper.
    Senator Carper.
    [Presiding] Thank you, Madam Chair. Thank you for your 
leadership and thank you for turning that gavel over to me. We 
will be finished here in about 3 hours.
    [Laughter.]
    Senator Carper. It may feel like 3 hours, but it won't be 
long at all.
    First of all, it is good to see you all. Thank you for 
coming and thank you for your stewardship and for your 
leadership on issues that are important to us, whether they are 
happening on the west coast, in California, where I used to 
live, before I moved to Delaware on the east coast, to find my 
fame and fortune. Well, actually, my fame, not my fortune.
    Every now and then, I run into people who say, well, I live 
in an area where it is described as a 100 year flood zone or 
maybe a 500 year flood zone. And people say, well, particularly 
in one place in northern Delaware where we had literally twice 
in about a 5-year period of time 100 year floods, and so 
probably after the first time it happened, people said, well, 
we are good for another 100 years. It turned out we weren't. 
But sometimes the term 100 year flood or 500 year flood is 
misleading. I have seen it with my own eyes and heard with my 
own ears how misleading that can be.
    But telling people that they have a 1 percent chance, that 
would be like a 100 year flood situation, or a 0.2 percent 
chance of flooding, which would relate to a 500 year flood, 
telling them that those are their chances of being flooded in a 
year can also be misleading. Let me just ask how you think we 
can maybe better communicate to Americans living in high risk 
areas the flood risks that they do face?
    Mr Woodley. Senator, you have put your finger right on the 
biggest communication issue and difficulty we have in this 
whole arena. And we are, as we speak, creating a new vocabulary 
for communication of risk. And it is----
    Senator Carper. Can you tell us a little bit about it?
    Mr Woodley. Actually, I think General Riley probably could 
describe it in more understandable terms than I can. It is not 
ready to be released, and it is something that we are wrestling 
with within the Federal family and also with the State 
agencies. There are two major groups that embody the State 
actors on this, NAFSMA, which is the National Association of 
Flood and Storm Management Agencies, and the Association of 
State Flood Plain Managers. They are actively working with us 
on this. And NOAA needs to be involved in it. But I am going to 
ask General Riley to describe the way we are going to be trying 
to communicate these risks in the future.
    Senator Carper. Good, thanks, if you would do that, General 
Riley, that would be great.
    General Riley. Yes, sir. Then we might even hear more 
specifics by General Walsh on how well New Orleans has accepted 
it. But probably our first example was in New Orleans. Also, we 
had some dams at risk at Wolf Creek and Center Hill, 
California, as well. Those were in Tennessee, and then in 
California. We have used the same sort of methodology. We found 
that in New Orleans in particular it took a great deal of 
modeling and sophistication, but we articulated the risks 
through inundation maps. You are able to now go onto Google, 
type in your address, go right to your home, and it says, if 
you live there, you have a risk every year of being flooded to 
this depth, two, three, four feet, or no feet if you are on a 
little bit higher ground.
    We have found that to be the most effective way to convince 
people. That is the risk every year from all storms, including 
rainfall, not just hurricanes.
    So we tried to get away from the terminology of percent, 
although it is difficult to get away from that, so we still use 
that. But we say, you can expect this depth every year from any 
type of storm to a certain percent, whether it be the 1 percent 
chance every year. Then we compared that 1 percent chance to 
some other event in their life that they can compare that to.
    Senator Carper. Such as what?
    General Riley. Well, such as the risk of crossing the 
street or the risk of flying, is probably an easier one, 
because they have those statistics available. So the 
comparative risk methodology is quite a body of knowledge. We 
are not all experts on it, but as Senator Boxer asked earlier 
about the insurance, we have partnered with the auto insurance 
agencies to help us be able to articulate risk, because they do 
that very, very well, and for a living.
    Senator Carper. Good, thanks. You guys are ahead of the 
curve on that one.
    I have one more issue I want to touch on. I serve on a 
couple other committees, some of which are meeting right now. 
One of those committees is the Banking Committee. Before I was 
Governor, I served on the House Banking Committee. About 20 
years ago, we worked on an effort to overhaul our Nation's 
flood insurance, which needed to be overhauled then, and 
frankly, still needs it today. One of the things that I found 
is that a lot of people want levees built to protect them and 
their family, their homes, their businesses, to protect them 
from floods and to protect them from having to buy flood 
insurance. Let me just ask, how is the latter issue handled by 
the Corps? How is that issue handled by the Corps?
    Mr Woodley. Senator, we work very closely with FEMA on 
defining and setting the parameters necessary for them to 
operate their program. But their program actually does not 
directly influence our decisionmaking on formulating projects. 
That is, our methodology in formulating new projects is 
determined by the value of the property that is expected to be 
protected and the amount of value then of benefit to the Nation 
from protecting it depends on the risk that it is under or the 
amount to which we are reducing its risk of being destroyed, 
then compare that against the cost of creating the engineering 
structure and, or the cost of the whole project with the non-
structural and structural elements. Then you do the cost 
benefit analysis, and if you get a benefit from that, then we 
could recommend that a project be built.
    And that may have the additional benefit of freeing the 
residents of the area from the necessity of purchasing flood 
insurance. If it does, I think that is a separate benefit, not 
a direct benefit from the project. That is not why we build the 
project, that is a benefit. It may be why the people who live 
there want the project to be built even more than their concern 
about inundation. But within our program, it is not used as a 
factor.
    Senator Carper. Does anyone want to add to that? General 
Riley?
    General Riley. Yes, sir, thank you, if I might. FEMA and 
the Corps work closely together; we have worked with many 
communities together. If I could just refer to this chart on my 
right as to how one State, has taken the work that FEMA and we 
have done with all of the State and flood plain managers around 
the Nation.
    In this case, it is California, and I asked permission to 
use their chart. This was our sort of depiction, our concept of 
buying down risk, all the different methods you can use to 
lower the risk of living in a flood plain, where you begin with 
an initial risk and you take steps. It is a shared 
responsibility, so everybody participates. It would be building 
codes, zoning, outreach, evacuation planning, insurance, and 
levees. Then you still end up with some residual risk. That is 
what has been missing in the past, when people thought if they 
had a levee, they were protected.
    What California did, they took this, they came back to us, 
here is what we are doing to buy down risk. And they put 
several hundreds of millions of dollars behind this effort in 
the State of California, especially, and this is in the central 
valley in this particular case, where they start with the most 
critical levee repairs, they go through some Federal projects, 
but then they get into State projects as well. They go down 
through building codes, insurance restrictions of building in 
the flood plain. After 2015, if they are not making adequate 
progress in protection, then they won't allow development. 
After 2025, there will be no development in a 200-year flood 
plain.
    So they have taken all those steps. This is about a 35 page 
briefing. I picked one slide out of it. But they go into great 
detail how they show that everybody, from State, local and 
private, insurance, bankers, developers, investors, all 
participate in lowering the flood risk. At the end of it, there 
is still a residual risk and that gets back to the education 
question you asked earlier.
    Senator Carper. Good, thank you. What is the old saying, a 
picture is worth a thousand words. That is a pretty good 
picture. Thanks for sharing that with us.
    Just a followup to my earlier question on flood insurance. 
What should the Corps' role be in ensuring that the flood 
insurance program is solvent and that people living in high 
risk areas have flood insurance? The answer may be, well, we 
have no responsibility, but there may be some responsibility. 
We found on the heels of Katrina that a 20 year old flood 
insurance or 35 year old flood insurance program was all of a 
sudden underwater to the tune of about $20 billion. The flood 
insurance program statutorily may draw on the Treasury, they 
have a line of credit to the Treasury. Over the years, it has 
been sort of off and on in terms of being solvent. But after 
Katrina, it was $20 billion underwater. But what role, if any, 
do you think is appropriate for the Corps with respect to 
trying to make sure that the program is solvent going forward?
    Mr Woodley. Senator, I don't think we participate in the 
management of the program to the extent of assuring its 
solvency. But I think that the way we manage, or the way we 
formulate projects, has changed in that we now are looking, 
when we formulate a project, we are looking at more non-
structural measures. Those can include the buy-out of flood-
prone areas and returning those areas to a natural flood plain 
State. We have done that in many, many cases as part of a 
mixture of different measures, whereas at some point in the 
past, we might have advocated a purely engineering solution of 
protecting all areas, to the maximum extent possible.
    Now, we will ask the question, is it really better that 
some part of this community be relocated and the place that 
they had previously settled be returned to a flood plain State. 
If you look at places like Grand Forks in North Dakota, where 
we have actually implemented that, and some projects in 
California and others in parts of the Midwest. Obviously, once 
that happens, all those formerly at-risk structures are no 
longer in the flood insurance program and the additional 
structures that would be in the flood program would, we hope, 
have a lower level of risk, increasing that solvency of the 
program to that degree.
    Senator Carper. Thank you. There is a community in northern 
Delaware which I mentioned earlier that went through, over a 
span of about a half dozen years, two 100 year floods. The 
decision was finally made that, maybe we don't want to look for 
that third time for lightning to strike. The community people 
were assisted and helped to relocate from there. The area has 
been pretty much returned to its natural State.
    OK. In closing, anything that either of the three of you 
would like to say, reiterate, say again, repeat, emphasize? Or 
just or not. General Walsh, you are welcome to chime in here as 
well, if there is anything you want to add.
    General Riley. Sir, if I may, to add to the last question, 
I co-chair an intergovernmental committee with the director of 
FEMA's flood mitigation program. We meet quarterly, and we meet 
with all of the representatives of the flood and storm managers 
around the Nation, the State and local storm managers. So we 
work that together to get consistency of FEMA and Corps policy 
and the application of those.
    Senator Carper. Good.
    General Riley. We get the State and local feedback at the 
same time.
    Second, on the flood insurance program, a major purpose of 
that is flood risk education. So we work closely with FEMA to 
educate people on their actual flood risk, and then of course, 
FEMA deals with the insurance component of that.
    Senator Carper. Good, thank you. Thanks for that 
clarification.
    Secretary Woodley.
    Mr Woodley. Senator, the only thing that I wanted to make 
sure we had indicated on the record in this hearing is that we 
had discussed in the supplemental appropriation, there was some 
approximately $600 million in emergency funding for the Corps, 
of which about half was directed to the Midwest. I would like 
to have it in the record very clearly that is a preliminary 
amount intended as a, well, certainly more than a placeholder, 
but at the time that the supplemental was prepared, we had by 
no means, and we even now today have not conducted the kinds of 
assessments and engineering work and cost estimates necessary 
to determine the final amount.
    So I think it is clearly indicated in our submissions, but 
I wanted to make it clear on the record of this hearing, that 
the amounts in the supplemental are very likely to be increased 
later as a result of the detailed assessments of our 
facilities, and of the damaged levees that are currently 
underway in the Mississippi Valley Division.
    Senator Carper. All right, thank you. General Walsh, do you 
want to add a closing word before I give the benediction?
    [Laughter.]
    General Walsh. Yes, thank you, Senator. I just wanted to 
mention that when I visited Quincy, Illinois and Hannibal, 
Missouri, Cedar Rapids, Waterloo, Iowa, Des Moines, Iowa----
    Senator Carper. When were you at those places?
    General Walsh. During the flood fights. I was very proud of 
our American people in working the flood fights. Certainly in 
Quincy, when the mayor asked for some volunteers to fill sand 
bags, 5,000 folks showed up working day and night filling sand 
bags. Thirteen million sandbags is what we distributed and 
filled, not just at Quincy but at other places as well.
    At Hannibal, again, volunteers just working day and night, 
putting together reception centers and just watching small 
government and the prideful American people to go after these 
floods, it was very moving to me.
    I talked to Governor Culver and the Governor of Illinois 
and Missouri and told them I was very proud of their people and 
how they were responding to these floods. Just let us figure 
out how to do it, and we will ask you when we need help. I 
think we have been able to respond to that so far.
    Senator Carper. That is inspiring to hear that account. 
Thank you.
    Let me just close by saying, on behalf of not just the 
people who live in the communities that you have just 
mentioned, but from west coast to east coast, and particularly 
the folks in Delaware, DelMarVa Peninsula, whom I am privileged 
to represent, we have a wonderful history of working with the 
folks who run your operation in the greater Delaware area, 
which includes a suburb of Wilmington, Philadelphia. That is a 
little humor there. But you had some just terrific leadership, 
on the military side and on the civilian side. We very much 
treasure, I think that is probably not too strong a word, 
treasure the relationship we have and the terrific cooperation 
that we get and support that we receive from the Army Corps. So 
thank you very, very much.
    With that having been said, I am going to reach over here 
and grab Chairman Boxer's gavel and we will conclude this 
hearing. Thank you so much.
    [Whereupon, at 11:07 a.m., the committee was adjourned.]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Thank you, Chairman Boxer. I'd like to welcome our 
colleagues who are here today to give us their observations on 
the impacts of the flooding and what their communities might 
now need. Also welcome to Secretary Woodley and General Walsh, 
who will provide us with specific details on the emergency 
preparedness and response activities of the Corps of Engineers 
and whether their efforts were at all hampered by existing 
authorities, as well as the impacts of the flooding across all 
Corps mission areas.
    The Corps of Engineers can play a critical role during 
excessive rain events. Last year, my home State of Oklahoma 
experienced record-breaking floods, but the Corps was right 
there to help lessen the impacts. The Tulsa District did an 
excellent job of, in particular, managing water levels at the 
reservoirs in order to prevent hundreds of millions of dollars 
in additional damages. Unfortunately, these floods caused a 
fair amount of damage at our recreation areas, leading to 
reduced services this year. Heavy rains again this year in the 
region have had impacts for the navigation industry as well.
    The flooded region today's hearing is focused on is facing 
a similarly broad range of water resources issues. It is not 
simply a question of whether the levees performed as intended 
and if so, whether we need more or larger levees or if not, why 
not. The questions we need to discuss involve how to balance 
all the needs and benefits of the Mississippi River and its 
tributaries.
    These waterways are used for navigation, recreation, 
hydropower, fish and wildlife habitat and other water resources 
needs. Sometimes these uses seem to be in conflict with one 
another. It is our job as policymakers to provide the technical 
experts at the Corps of Engineers with enough guidance and the 
proper tools to promote the national interest in the use of the 
waterways. Today we get a chance to hear a status update on 
this particular flooding incident, as well as any 
recommendations for future improvements.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
